No.
October Term, 2020
In the

Supreme Court of the United States
Dennis K. Kieren, Jr.,
Petitioners,
v.
The State of Nevada, Attorney General et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed In Forma Pauperis
Rene L. Valladares
Federal Public Defender of Nevada
*Lori C. Teicher
First Assistant Federal Public Defender
Lori_Teicher@fd.org
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Attorney for Petitioners
*Counsel of Record

Petitioner Dennis Kieren respectfully asks for leave to file the
attached Petition for Writ of Certiorari without prepayment of costs and
to proceed in forma pauperis. Mr. Kieren has been granted leave to so
proceed in the District Court and in the United States Court of Appeals.
Counsel was appointed by the United States District Court for the
District of Nevada under 18 U.S.C. ยง 3599(a)(2). See also SUPREME
COURT RULE 39.1 (authorizing leave to proceed in forma pauperis).
Accordingly, no affidavit is attached
Dated August 5, 2020.
Respectfully submitted,
/s/ Lori C. Teicher
Lori C. Teicher
First Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, NV 89101
(702) 388-6577
Lori_Teicher@fd.org

